lodged in the dashboard of Sandoval's truck was found months later in Mr. Navarro's
apartment, the translation of her statements was the only evidence that had him at the scene
and acting as an accomplice to Cesar Rodriguez, who fired the shot that killed Sandoval. The
constitutional violation arising from the admission of the English translation of her
statements can therefore not be shown to be harmless beyond a reasonable doubt, and Mr.
Navarro's convictions for murder and shooting into an occupied motor vehicle must be
reversed. . Chapman v. California, 386 U.S. 18, 24 (1967).
CONCLUSION
For the foregoing reasons, Antonio Navarro, requests the Court grant his Petition for
Writ of Certiorari, on the issue of and order that the Court of Appeals grant a Certificate of
Appealability on the following issue: whether the admission at a criminal trial of a translation
of a witness's statement made in anticipation of litigation without calling the translator at
trial for cross-examination, violates the Sixth and Fourteenth Amendments to the United
States Constitution?
lly submitted,
Dated: March 23, 2021

JOHN LANAHAN
CA State Bar Number 133091
50 I West Broadway, Suite 1510
San Diego, CA 92101-8557
Telephone: (619) 237-5498
E-mail: lawnahan@sbcglobal.net
Attorney for Petitioner
-17-

